No. 20-875
In the

Supreme Court of the United States
SOK KONG, TRUSTEE FOR NEXT-OF-KIN OF MAP KONG,
DECEDENT,
Petitioner,
v.
CITY OF BURNSVILLE, MAKSIM YAKOVLEV, JOHN MOTT, AND
TAYLOR JACOBS,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit

Certificate of Service

I hereby certify that I am a member of the bar of this Court and that on this
day—January 20, 2021—I caused an electronic copy of the Motion for Leave to File
a Brief as Amicus Curiae and the Brief of Professor Bryan Lammon as Amicus
Curiae Supporting Petitioner in the above-captioned case to be served on the
following electronically:
David Michael Shapiro
RODERICK & SOLANGE MACARTHUR
JUSTICE CENTER
375 East Chicago Avenue
Chicago, IL 60611
312-503-0711
david.shapiro@law.northwestern.edu
Counsel for Petitioner

Patrick S. Collins
Joseph E. Flynn
JARDINE, LOGAN & O’BRIEN P.L.L.P.
8519 Eagle Point Boulevard, Suite 100
Lake Elmo, MN 55042
651-290-6500
pcollins@jlolaw.com
jflynn@jlolaw.com
Counsel for Respondents

Respectfully submitted,

Bryan Lammon
Amicus Curiae & Counsel of Record
UNIVERSITY OF TOLEDO COLLEGE OF LAW*
2801 W. Bancroft St.
Toledo, Ohio 43606-3390
419-530-4514
bryan.lammon@utoledo.edu
January 20, 2021

* For affiliation purposes only.

